XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 95612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270
E-Mail: Joshua.Klein@doj.ca.gov

December 2, 2020
By Electronic Filing
Hon. Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Trump, et al. v. Sierra Club, et al., No. 20-685
Request for extension of time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 17, 2020.
Responses are currently due on December 17. This office represents the State of California and
is leading the preparation of the response that will be filed on behalf of the state respondents.
Pursuant to Rule 30.4, we respectfully request that the time in which to respond to the
petition be extended by 30 days, making it due (in light of the weekend and holiday) on Tuesday,
January 19, 2021. The extension is requested to allow California to complete a response that will
best assist this Court, and in light of the heavy press of other cases assigned to the attorneys
handling this matter. For example, the undersigned counsel is also responsible for preparing the
State’s brief on the merits in Trump v. Sierra Club, No. 20-138 (due January 12, 2021), and the
State’s response to the petition for certiorari in Barr v. San Francisco, et al, No. 20-666 (due
January 13, 2021). In addition, the Solicitor General of California, who will be involved in
drafting and reviewing the response in this case, will also be responsible for drafting or
reviewing, among other things, the above-referenced briefs; the State’s merits brief in Lange v.
California, No. 20-18 (due December 4, 2020); the State’s response to the views of the Solicitor
General in Americans for Prosperity Foundation v. Becerra and Thomas More Law Center v.
Becerra, Nos. 19-251 & 19-255 (expected to be filed on or around December 9); and the State’s
merits brief in Cedar Point Nursery v. Hassid, No. 20-107 (due January 27, 2021). No previous
extensions of time have been requested in this matter.

December 2, 2020
Page 2
Thank you for your consideration of this request.
Sincerely,
s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Acting Solicitor General Jeffrey B. Wall
Counsel for Petitioners
Dror Ladin, American Civil Liberties Union
Counsel for Respondents Sierra Club and So. Border Communities Coalition

